National Aeronautics and Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                                January 5, 2010

TO:            American Recovery and Reinvestment Act Senior Accountable Official
               American Recovery and Reinvestment Act Implementation Executive

FROM:          Acting Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Analysis of NASA’s Final Agency-Wide
               Recovery Act Plan (Report No. IG-10-006; Assignment No. A-09-009-03)

        The American Recovery and Reinvestment Act (Recovery Act) requires Federal Offices
of Inspector General (OIGs) to assess their agency’s compliance with Recovery Act mandates
and with the Office of Management and Budget’s (OMB) April 3, 2009, “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009” (OMB Guidance). On the
basis of this requirement, NASA OIG conducted a review of NASA’s Agency-Wide Recovery
Act Plan for use of funds provided under the Recovery Act that was submitted to OMB on May
15, 2009. We analyzed the Agency-Wide Recovery Act Plan to assess compliance with the
requirements of the OMB Guidance.

Executive Summary
        Our initial review of the final NASA Agency-Wide Recovery Act Plan identified several
compliance issues with respect to fulfilling requirements of the OMB Guidance. Specifically,
NASA’s Agency-Wide Recovery Plan provided insufficient detail about the Agency’s broad
Recovery Act goals in terms of outputs, outcomes, and expected efficiencies. In addition, the
Plan did not include a projection of the expected rate of competition nor a rationale for those
numbers, as required by the OMB Guidance. Lastly, the Plan did not address the use of fixed-
price contracts as a percentage of all dollars spent or describe the steps planned to maximize the
use of fixed-price contracts where practicable for ARRA-funded contracts.

        Based on our discussion of these issues with the NASA Recovery Act Implementation
Executive, we determined that the Agency is aware of these non-compliance issues and is taking
steps to address them. In addition, OMB conditionally accepted NASA’s Agency-Wide
Recovery Act Plan as submitted on May 15, 2009. NASA is currently awaiting guidance from
OMB regarding deadlines and formats for updating its Recovery Act Program Plans. Once the
issues noted by the OIG have been addressed and updates are submitted to OMB, we will
conduct a follow-up review of NASA’s Agency-Wide Recovery Plan.

       We issued the draft memorandum on December 17, 2009. In NASA’s response, received
January 5, 2010, the Recovery Act Implementation Executive stated the Agency concurred with
the observations noted in this memorandum.
                                                                                                   2


Background
        The OMB Guidance requires Federal agencies receiving Recovery Act funds to develop
an agency-wide plan to serve as the formal, documented plan for how Recovery Act funds will
be applied and managed. These plans must describe each agency’s broad Recovery Act goals,
the extent to which the agency will rely on competitively bid contracts, and agency
accountability mechanisms for Recovery Act activities. The OMB Guidance also requires
agencies to develop a summary table that breaks down the Recovery Act funds by the amount
awarded to each individual project. In addition, the agency-wide plans must describe the
processes in place for senior managers to regularly review the progress and performance of
major Recovery Act programs, including identifying areas of risk and developing risk mitigation
plans.

          The OMB Guidance requires the following data in agency-wide program plans:

      1. Broad Recovery Goals – outputs, outcomes, or expected efficiencies;
      2. List of Recovery Programs within the Agency – each individual program receiving
         Recovery Act funds;
      3. Funding Table – Agency plan for obligations and gross outlays;
      4. Competition on Contracts – excludes contracts under grants, describes past competition
         achievements and the steps taken and planned to maximize competition;
      5. Contract Type – excludes contracts under grants, describes use of fixed-price contracts
         and the steps taken and planned to maximize the use of fixed-price contracts; and
      6. Description of Agency Accountability Mechanisms – review of performance results and
         process to engage agency senior leaders.

Initial OIG Review of NASA’s Agency-Wide Recovery Act Plan
        In our initial review of NASA’s final Agency-Wide Recovery Act Plan, we identified
several compliance issues with respect to fully addressing the six data elements specified in the
OMB Guidance. However, OMB conditionally accepted NASA’s Agency-Wide Plan as
submitted in May of 2009, contingent upon OMB receiving an updated version of the Plan once
modifications based on changes to NASA’s fiscal year (FY) 2009 Operating Plan were
completed. Based on OMB’s conditional acceptance of the Agency-Wide Plan, NASA uploaded
the plan to NASA’s Recovery Act Web site in May of 2009. Once further guidance is received
from OMB, the Agency will revise the Agency-Wide Recovery Act Plan. The OIG will review
the changes at that time to ensure the issues noted in our initial review have been adequately
addressed.

        At the time NASA’s Agency-Wide Plan was sent to OMB, NASA’s FY 2009 Operating
Plan had not received Congressional concurrence.1 Because the exact allocations of funding
were subject to change based on recommendations from Congress, NASA did not include
specific funding details in its Agency-Wide Plan, as required by the OMB Guidance.
1
    Subsequent to our review, Congress approved NASA’s Operating Plan in July 2009.
                                                                                                         3


        One of the compliance issues we noted during our review of the Plan was the lack of
detail about the Agency’s broad Recovery Act goals in terms of outputs, outcomes, and expected
efficiencies. We also noted that the Plan did not include a projection of the expected rate of
competition or a rationale for such a projection, as required by the OMB Guidance. In addition,
the Plan did not fully address the use of fixed-price contracts.

        The table below provides details about the compliance issues we noted during our initial
review of NASA’s Plan. Included in the table is the resolution or planned resolution to each
issue, as provided by the NASA Recovery Act Implementation Executive. Data elements that
NASA fully complied with were not included in the table.

          Table 1: Compliance Issues Noted in NASA’s Agency-Wide Recovery Act Plan
    Reporting
     Element                  Compliance Issue                              Resolution
 Broad Recovery     The Plan addressed the Agency’s         At the time NASA’s Agency-Wide Plan
 Goals              broad recovery goals but did not        was submitted to OMB, NASA’s FY
                    provide sufficient detail as to the     2009 Operating Plan had not received
                    intended result of those goals, such    Congressional concurrence. Because the
                    as outputs, outcomes, and expected      exact allocations of funding, and thus the
                    efficiencies.                           goals resulting from the use of Recovery
                                                            Act funds, could not be determined
                                                            without concurrence on the Operating
                                                            Plan, these details could not be included
                                                            by the May 15, 2009 deadline.
                                                            Subsequent to our review, Congress
                                                            concurred with NASA’s FY 2009
                                                            Operating Plan and changes to both the
                                                            Agency-Wide and Program-Specific
                                                            Recovery Act Plans are being made to
                                                            include all of the information required
                                                            by OMB Guidance.
 Competition on     The Plan did not include a projection   OMB accepted the incomplete data
 Contracts          of the expected rate of competition     pending an update to be submitted at an
 (excludes          or rationale for the projection, as     as-yet undetermined date.
 contracts under    required by the OMB template.
 grants)
 Contract Type      The Plan did not address the use of     NASA reported that because of the
 (excludes          fixed-price contracts as a percentage   nature of its projects, few fixed-price
 contracts under    of all dollars spent or describe the    contracts would be awarded. The
 grants)            steps taken and planned to maximize     Agency’s justification is posted at
                    the use of fixed-price contracts        required locations, such as
                    where practicable for ARRA-funded       www.recovery.gov, in accordance with
                    contracts.                              the Recovery Act.

      From our review of the Plan and discussions with NASA officials, we concluded that the
Agency is taking the appropriate steps to address the outstanding issues related to the OMB
Guidance requirements. NASA’s updated Plans will be submitted to OMB once additional OMB
                                                                                                  4


guidance is issued with instructions for doing so, and we will review the changes to ensure the
issues noted in our initial review have been adequately addressed.

       In NASA’s response, received January 5, 2010, the Recovery Act Implementation
Executive stated the Agency concurred with the observations noted in this memorandum. The
response also noted that, “OMB has informed the Agency that the Recovery Accountability &
Transparency Board (RATB) is currently responsible for Recovery.gov, and providing any
opportunities for updating the Agency-wide and Program Plans posted there. We have been
informed that the RATB intends to provide this opportunity early this calendar year.”

       We appreciate the courtesies extended during our review. If you have any questions or
need additional information, please contact Ms. Laura B. Nicolosi, Director, at 202-358-2562, or
Mr. John Apker, Project Manager, at 202-358-2978, of the Office of Audits, Institutional
Management and Recovery Act Activities Directorate.

      /s/
Debra D. Pettitt

cc:
NASA General Counsel
                                Scope and Methodology
We performed this review from May 2009 through November 2009. This review was not an
audit conducted in accordance with government auditing standards. We limited our scope to
reviewing the NASA Agency-wide Recovery Act Program Plan as submitted by the Agency to
OMB on May 15, 2009 in order to assess its compliance with the Recovery Act requirements for
Agency-wide Program Plans as outlined in OMB’s April 3, 2009 “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009” (OMB Guidance). We did
not use computer-processed data to perform this review and there was no prior OIG audit
coverage of this issue.
